No. 19-670

 

 

In THE
Supreme Court of the United States

ARNOLD FLECK,
Petitioner,
Vv.
JOE WETCH; AUBREY FIEBELKORN-ZUGER;
TONY WEILER; AND PENNY MILLER,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit

BRIEF OF THE NATIONAL RIGHT TO WORK
LEGAL DEFENSE FOUNDATION, INC. AND
REASON FOUNDATION AS AMICI CURIAE

SUPPORTING PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,136 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 26, 2019.

Colin Case¥Y Hogan
Wilson-Epes Printing Co., Inc.

  
